                           U.S. Department of the Interior
                               Office of Inspector General




        The new fire truck barely fits into the Tutu Fire Station’s garage bay. (OIG photo)




             Contracts for Facility Improvements,
                      Virgin Islands Fire Service,
                Government of the Virgin Islands


Report No. V-IN-VIS-0100-2004                                                  September 2005
                     United States Department of the Interior

                                      Office of Inspector General
                                           Western Region
                                               Federal Building
                                        2800 Cottage Way, Suite E-2712
                                           Sacramento, California 95825


                                                                              September 20, 2005
                                                                                            7430

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, VI 00802

Subject: Final Audit Report “Contracts for Facility Improvements, Virgin Islands Fire Service,
         Government of the Virgin Islands” (Report No. V-IN-VIS-0100-2004)

Dear Governor Turnbull:

        The attached report presents the result of our audit of contracts issued by the Virgin
Islands Fire Service for improvements to facilities and the purchase of equipment. The objective
of our audit was to determine whether (1) contracts for facility improvement were issued and
administered in accordance with applicable laws and regulations, (2) contracted work was
satisfactorily completed, and (3) federal grant funds were used in accordance with grant terms
and conditions.

        The legislation, as amended (5 U.S.C. app. 3), creating the Office of Inspector General
requires that we report to the U.S. Congress semiannually on all audit reports issued, actions
taken to implement our recommendations, recommendations that have not been implemented,
and the monetary effect of audit findings. Therefore, this report will be included in the next
semiannual report. Please see Appendix 1 for the monetary effect of the findings in this report.

       Please provide a response to this report by October 28, 2005. The response should
provide the information requested in Appendix 5 and should be addressed to me at the above
address, with a copy to our Caribbean Field Office, Ron deLugo Federal Building – Room 207,
St. Thomas, VI 00802.

                                                 Sincerely,




                                                 Michael P. Colombo
                                                 Regional Audit Manager
CONTENTS
                   Background .................................................................................... 1
INTRODUCTION       Scope of Audit ............................................................................... 1
                   Prior Audit Coverage ..................................................................... 2


                   Overview........................................................................................ 3
RESULTS OF AUDIT   Contract Administration and Oversight ......................................... 3
                   Use of Federal Grant Funds ........................................................... 5


                   To the Governor of the Virgin Islands........................................... 7
RECOMMENDATIONS

                   1.   Monetary Impact....................................................................... 8
APPENDICES         2.   Fire Service Contracts – Local Funds....................................... 9
                   3.   Fire Service Grants – Federal Funds.........................................10
                   4.   Response to Draft Report..........................................................11
                   5.   Status of Recommendations......................................................13




                                              i
INTRODUCTION
                 The Virgin Islands Fire Service, established in 1979 under the
BACKGROUND       Office of the Governor, is administered by a Director, appointed by
                 the Governor with the advice and consent of the Legislature. The
                 Fire Service is divided into separate units for the District of
                 St. Thomas/St. John and the District of St. Croix, with
                 administrative offices in both districts.

                 In October 2000, the Governor authorized public exigency
                 procurement procedures to expedite the use of $2 million to
                 purchase protective equipment and supplies and to renovate fire
                 stations. The $2 million included $1.5 million from the
                 Government's Asset Recovery Fund and $500,000 from the Virgin
                 Islands Board of Public Accounting Special Fund. From
                 December 2000 to November 2002, the Department of Property
                 and Procurement, on behalf of the Fire Service, entered into eight
                 contracts totaling $1,173,168 to repair two fire stations on
                 St. Thomas (Charlotte Amalie and Tutu), four fire stations on
                 St. Croix (Richmond - two contracts, Cotton Valley, Frederiksted,
                 and Grove Place), and the administrative office on St. Croix
                 (Estate Slob) (Appendix 2).

                 In fiscal years 2000 to 2004, the Fire Service received nine federal
                 grants totaling $2,121,065 to be used primarily for purchasing new
                 fire vehicles, equipment, and supplies and for training firefighters.
                 Four grants were awarded by the U.S. Department of Agriculture’s
                 Forestry Division (USDA), four by the Federal Emergency
                 Management Agency (FEMA), and one by the U.S. Department of
                 Housing and Urban Development (HUD) (Appendix 3).

                 We reviewed all eight construction contracts and five of the nine
SCOPE OF AUDIT   grants, totaling $1,390,536, awarded during fiscal years 2000 to
                 2004.

                 To accomplish our audit objective, we interviewed officials and
                 reviewed correspondence, contracts and change orders, payment
                 records, other procurement documents, and grant award documents
                 at the Virgin Islands Fire Service, Department of Finance,
                 Department of Property and Procurement, and Department of
                 Public Works on both St. Thomas and St. Croix. We also
                 performed site visits and inspections at fire stations and
                 administrative offices on St. Thomas, St. Croix, and St. John.
                 Our audit was conducted in accordance with the “Government
                 Auditing Standards,” issued by the Comptroller General of the



                                    1
              United States. Accordingly, we included such tests of records and
              other auditing procedures that were considered necessary under the
              circumstances. As part of our audit, we evaluated the internal
              controls related to the award and administration of contracts and
              the use of grant funds at the Virgin Islands Fire Service to the
              extent we considered necessary to accomplish the audit objective.
              Internal control weaknesses identified in these areas are discussed
              in the Results of Audit section of this report. The
              recommendations, if implemented, should improve the internal
              controls in these areas.

              Our audit report Virgin Islands Fire Service, Government of the
PRIOR AUDIT   Virgin Islands, issued October 2001, discussed nine areas in which
COVERAGE      the Fire Service needed improvement. One area was the use of
              $2 million allotted to renovate fire stations and upgrade fire
              fighting equipment. We made 11 recommendations to the
              Governor of the Virgin Islands to address internal control
              weaknesses related to the Fire Service. The Governor and the Fire
              Service concurred with all 11 recommendations. As of
              October 15, 2004, the recommendations were considered resolved
              and implemented, except Recommendations 1 and 3. These
              recommendations, which involved safety inspections and staffing
              levels, were considered resolved but not implemented. This
              classification was based on supplemental information submitted by
              the Fire Service through the Virgin Islands Office of Management
              and Budget.




                                2
RESULTS OF AUDIT
                        The Department of Property and Procurement, on behalf of the
OVERVIEW                Fire Service, used appropriate competitive procurement procedures
                        for construction work at the fire stations, in each case selecting the
                        lowest bidder or documenting why the lowest bidder was not
                        selected. However, the Fire Service and the Department of Public
                        Works did not always adequately oversee construction work,
                        resulting in the Fire Service paying $24,149 for work that was not
                        completed and failing to assess liquidated damages of $57,500 for
                        unauthorized construction delays. The Fire Service also did not
                        consider the size of a new fire truck when finalizing a contract to
                        repair the Tutu Station, resulting in garage bays that were too
                        narrow. Further, although the Fire Service generally administered
                        federal grant funds according to grant requirements, it did not
                        competitively award a $55,000 contract for training, as required by
                        the awarding agency; provide supporting documentation for
                        $24,000 in grant expenditures; or effectively use grant-funded
                        equipment costing $72,331.

                        Under the Virgin Islands Code, 1 the Department of Public Works
CONTRACT                is responsible for supervising the construction and repair of all
ADMINISTRATION          government buildings. Although Public Works assigned project
AND OVERSIGHT           managers to Fire Service construction projects and the Fire Service
                        provided some oversight, work was not always adequately
                        monitored. On our visits to Fire Service facilities, accompanied by
                        the Fire Chief on St. Croix and the Deputy Fire Chief on
                        St. Thomas, we noted the following problems.

►Contractors Paid for   The Fire Service overpaid four contractors a total of $24,149 for
Incomplete Work         construction work that was not completed in accordance with
                        contract requirements, as follows:

                        ¾ At the Frederiksted Station, the overpayment of $2,156
                          consisted of $900 for a non-existent roll-up door and
                          $1,256 for plastering work that was not completed. The
                          contractor charged and was paid for refurbishing six roll-up
                          doors at $900 per door, although the station had only five.

                        ¾ At the Grove Place Station, the overpayment of $6,890
                          consisted of $6,096 for two vehicle exhaust systems and
                          $794 for two windows that were never installed. We could not
                          find the exhaust system equipment during a site visit and were
                          told that station staff did not know what happened to it.
                        1
                            3 V.I.C. § 138(a)(4).


                                                    3
                      ¾ The overpayment of $6,096 at the Cotton Valley Station was
                        likewise for two vehicle exhaust systems that were never
                        installed. Again, during a site visit, we could not find major
                        equipment items, including the motor for the system.

                      ¾ At the Charlotte Amalie Station, the contractor was advanced
                        $9,007 to purchase materials for roof repair. The resulting
                        work was substandard, however, resulting in the station
                        incurring costs to repair water damage. Although the Fire
                        Service terminated the contract for non-performance, the roof
                        remains in need of substantial repairs.

                      Based on statements by the Fire Service and Public Works that
                      contract work at the Frederiksted, Grove Place, and Cotton Valley
                      Stations on St. Croix was complete and acceptable, the Department
                      of Property and Procurement issued “Release of Claims” forms to
                      the contractors, accepting the work and releasing all parties from
                      any legal claims resulting from the work. The project manager for
                      these contracts revisited the Frederiksted Station and concurred
                      with our findings, but could not explain how the discrepancies we
                      noted were overlooked. The project manager did not address
                      discrepancies at the Grove Place and Cotton Valley stations.

►Liquidated Damages   The Fire Service did not assess liquidated damages for five
Not Assessed          construction projects completed after the dates specified by the
                      contracts and approved change orders. At the contract rate of
                      $100 per day, assessment of liquidated damages would have
                      resulted in cost reductions of $57,500 (see following tabulation),
                      which could have been used for other projects.

                                        Scheduled            Actual       No. of
                          Fire         Completion Completion               Days
                        Station            Date               Date         Late       Damages
                      Frederiksted      7/26/2001           4/5/2002        253          $25,300
                      Richmond           5/7/2001        11/19/2001*        192            19,200
                      Cotton
                      Valley             3/8/2001           6/5/2001         87             8,700
                      Tutu              3/12/2004          4/15/2004         34             3,400
                      Grove Place        3/7/2001          3/16/2001          9                900
                      Total                                                              $57,500
                      * We could not determine the exact date work was completed because the final
                      periodic payment estimate did not show dates for which work was billed. We
                      therefore used the date the contractor signed the final periodic estimate as an
                      indicator of when the work was finished.




                                            4
                      Figure 1. Damage to the structural column at the Tutu Fire Station. Also note
                      the closeness of the fire truck to the column in the adjacent garage bay.
                      (OIG photo)


►Garage Bays Too      Inadequate planning by the Fire Service resulted in the garage bay
Narrow for New Fire   extension constructed at the Tutu Station being too narrow to
Truck                 adequately and safely house the station’s newest fire truck.
                      Although it already had approved the specifications for new fire
                      trucks, the Fire Service did not include moving the existing
                      structural columns to accommodate the new fire truck when it
                      finalized the contract for the garage bay extension. Consequently,
                      when the new truck was placed in service in December 2002,
                      firefighters had difficulty bringing the truck into the garage bay
                      and damaged both the truck and the structural columns (Figure 1).
                      Additionally, the fire truck’s doors could not be opened when the
                      truck was parked in the garage bay, and firefighters did not have
                      room to climb aboard the truck. In a fire emergency, precious time
                      could be lost while firefighters waited for the truck to be driven
                      completely out of the bay to climb aboard.

                      For the five grants reviewed, the Fire Service generally expended
USE OF FEDERAL        the funds in accordance with grant requirements. However, it did
GRANT FUNDS           not follow competitive procurement requirements in awarding a
                      $55,000 firefighter training contract, could not support $24,000 in
                      claimed expenses, and did not effectively use equipment purchased
                      with $72,331 in grant funds.

►Failure to Compete   The Fire Service did not competitively award a $55,000 training
Training Contract     contract, although the contract was funded from a $79,000
                      Cooperative Volunteer Program 2000 grant from the USDA, 2
                      whose regulations mandate “full and open competition” in all

                      2
                          Title 7, Part 3016 of the Code of Federal Regulations.


                                              5
                      procurement transactions. We found no evidence that the Fire
                      Service made any effort to obtain proposals from other training
                      providers and contacted USDA to determine whether it had any
                      concerns about the contract or the training. USDA did have
                      concerns, as iterated in a report prepared by a USDA project
                      manager sent to sit in on the training sessions. The report stated
                      that the course did not qualify firefighters for subsequent standard
                      firefighting courses and that future training should be conducted by
                      another company because USDA wanted “experienced people
                      teaching the course.”

►Grant Expenditures   The Fire Service charged unsupported expenditures totaling
Unsupported           $24,000 against the same $79,000 USDA grant. Neither we nor
                      the Fire Service’s grants manager could find supporting documents
                      (miscellaneous disbursement vouchers, vendor invoices, or vendor
                      receipts) in any of the grant files. We classified the $24,000 as
                      questioned costs because we could not determine what the money
                      was used for or whether the charges were allowable under the
                      terms of the grant.

►Ineffective Use of   Fire station equipment purchased with federal grant funds totaling
Equipment             $72,331 remained unused for periods ranging from 17 to
                      33 months. As a result, $51,868 from a USDA Cooperative
                      Program 2001 grant and $20,463 from a FEMA Assistance to
                      Firefighters 2001 grant were not used effectively. Specifically:

                      ¾ A well water system at the Cotton Valley station, to be
                        installed with $51,868 in USDA grant funds, was unfinished
                        and unused for at least 26 months (November 2002 to January
                        2005), and the system’s generator was unused for at least
                        17 months (August 2003 to January 2005). During our January
                        2005 site visit, we saw that although the well had been drilled
                        and the necessary plumbing and electrical work performed, the
                        well was inoperable because it had not yet been connected to a
                        newly purchased emergency power generator. The Fire Chief
                        told us that a structure to house the generator had not yet been
                        constructed, although requests for proposals were sent to three
                        companies in September 2004.

                      ¾ A hose washer ($10,179) and hose dryer ($10,284) purchased
                        for St. Croix in April 2002 were still in their original wrapping
                        during our site visit in January 2005 and had not been used for
                        about 33 months (April 2002 to January 2005). As a result,
                        FEMA grant funds of $20,463 were not put to effective use.




                                        6
RECOMMENDATIONS
                   We recommend that the Governor of the Virgin Islands require the
TO THE GOVERNOR    Director of the Fire Service to:
OF THE VIRGIN
ISLANDS              1. Appoint an in-house project manager to participate in the
                   planning, supervision, and monitoring of future construction
                   projects.

                     2. Assess and collect the $57,500 in liquidated damages for
                   unapproved construction delays, as specified in the construction
                   contracts.

                     3. Adhere to federal grant regulations regarding the use of
                   competition in the selection of contractors.

                     4. Locate and submit to USDA the supporting documentation
                   for $24,000 in miscellaneous expenditures from the Cooperative
                   Volunteer Program 2000 grant. The Fire Service should also
                   ensure that all future grant expenditures are properly supported.

                     5. Prioritize equipment needs to ensure that items purchased
                   with federal grant funds meet the immediate needs of the Fire
                   Service and are put into service in a timely manner.

                   The August 11, 2005 response (Appendix 4) from the Director of
AUDITEE RESPONSE   the Fire Service concurred with the findings and recommendations
                   and provided information on actions which have been or are being
                   taken to implement the recommendations. However, the response
                   stated that the Fire Service could not locate any supporting
                   documents for $24,000 expended from the 2000 USDA
                   Cooperative Volunteer Program grant. Based on the response, we
                   consider Recommendations 1, 3, and 5 as resolved and
                   implemented; Recommendation 2 as resolved but not
                   implemented; and Recommendation 4 as unresolved. We will
                   refer Recommendation 4 to USDA for appropriate follow-up
                   action regarding the $24,000 in unsupported grant expenditures.
                   Appendix 5 describes the documentation that the Virgin Islands
                   Fire Service should provide in order to close out
                   Recommendations 2 and 4.




                                     7
APPENDIX 1 -
MONETARY IMPACT

                                                              Funds to Be Put to
                     Finding Area         Unsupported Costs      Better Use

 Contracts:

    Payments for Incomplete Work                                  $24,149 *

    Unassessed Liquidated Damages                                  57,500 *

 Grants:

    Unsupported Expenditures                  $24,000 **

    Ineffective Use of Grant Funds:
       USDA                                                        51,868
       FEMA                                                        20,463
                                                                   72,331**

        Totals                                $24,000           $153,980

__________
 * Amounts represent local funds.
** Amount represents federal funds.




                                      8
APPENDIX 2 -
FIRE SERVICE CONTRACTS – LOCAL FUNDS

                             Total Contract    Payments for   Unassessed
                            Amount Including    Incomplete    Liquidated
    Fire Station Location    Change Orders        Work         Damages

St. Croix:

  Frederiksted                  $228,432         $2,156       $25,300

  Grove Place                    100,846          6,890           900

  Richmond                       199,270                       19,200

  Richmond (Fencing)              23,288

  Cotton Valley                  162,591          6,096         8,700

  Estate Slob                     82,942

St. Thomas:

  Tutu                           342,231                        3,400

  Charlotte Amalie                33,568          9,007

     Totals                    $1,173,168       $24,149       $57,500




                                    9
APPENDIX 3 -
FIRE SERVICE GRANTS – FEDERAL FUNDS

                                                                                                          Ineffective
                                                 Total Grant      Grant Amount         Unsupported          Use of
    Grantor Agency and Grant Title                Amount            Reviewed           Expenditures      Grant Funds


 USDA:

    Cooperative Volunteer Program 2000               $79,000             $79,000           $24,000

    Cooperative Volunteer Program 2001               138,000                    *                            $51,868

    Cooperative Volunteer Program 2003               215,000

    Cooperative Volunteer Program 2004               120,000

 FEMA:

    Fire Service 2001-FG-04241                       241,780             241,780                              20,463

    Fire Service 2001-FG-16050                       241,780             241,780

    Fire Service 2001-FG-04241                       257,529

    Fire Service 2001-FG-16789                        49,890              49,890

 HUD:

    FY2001 ED Special Project                        778,086             778,086

       TOTALS                                     $2,121,065         $1,390,536            $24,000           $72,331

__________
* Although we did not select this grant for detailed review, during our site visit to the fire stations, we noted unused
water well equipment that was purchased through the grant.




                                                          10
APPENDIX 4 -
RESPONSE TO DRAFT REPORT




                   11
     APPENDIX 4
       Page 2 of 2




12
APPENDIX 5 -
STATUS OF RECOMMENDATIONS

Finding/Recommendation                                     Action Required
       Reference              Status
                                              No further action required.
      1, 3, and 5        Resolved and
                         Implemented.
                                              Provide documentation showing that actions
          2              Resolved, Not        have been completed to recover liquidated
                         Implemented.         damages from contractors who did not
                                              complete contracted work in accordance
                                              with contract specifications and
                                              requirements.

                                              Provide USDA and this office with either
          4              Unresolved.          supporting documents for the $24,000 in
                                              questioned expenditures from the 2000
                                              Cooperative Volunteer Program grant or a
                                              detailed narrative explanation of how the
                                              grant funds were used.




                                         13
